OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




             Increases in Security Costs
Are Likely under the Afghan Public Protection Force;
     USAID Needs to Monitor Costs and Ensure
    Unlicensed Security Providers Are Not Used




                                            June 29, 2012




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors
                 SIGAR
                                                            SIGAR Audit-12-10                                                                   June 2012
                                                               Increases in Security Costs Are Likely under the Afghan Public
                                                              Protection Force; USAID Needs to Monitor Costs and Ensure that
                                                                         Unlicensed Security Providers Are Not Used
Special Inspector General for Afghanistan Reconstruction
What SIGAR Reviewed
During fiscal years 2009 through 2011, the U.S. Agency for International Development (USAID) provided more than $4.2 billion to
its implementing partners to carry out reconstruction and development assistance programs in Afghanistan. Implementing partners
are responsible for their own security needs and most contracted with private security contractors (PSC) for security services for their
offices, housing, and project sites and for the movement of their personnel. In March 2011, the Afghan government issued The
Bridging Strategy for Implementation of Presidential Decree 62, which provided for the eventual dissolution of most PSCs. Under
this strategy, the Afghan government required that security services for development programs and projects transfer to a state-run
Afghan Public Protection Force (APPF) by March 20, 2012. In January 2012, President Karzai approved a model allowing
implementing partners to use risk management companies (RMC) to advise on the security of sites, personnel, logistics,
transportation of goods and equipment, and contract management. SIGAR’s objectives were to assess (1) the costs and the number of
personnel and vehicles associated with PSCs for selected USAID projects during fiscal years 2009 through 2011 and (2) the potential
costs related to the transition of security services from PSCs to the APPF and the plans of implementing partners after the transition.
SIGAR also determined whether USAID’s implementing partners for selected projects were using PSCs licensed by the Afghan
government. To accomplish these objectives, SIGAR analyzed invoices and other data from 13 implementing partners responsible
for 29 of USAID’s largest projects during fiscal years 2009-2011 and discussed cost and transition issues with USAID, the
Departments of Defense and State, and six implementing partners. SIGAR conducted work in Washington, D.C., and in Kabul,
Afghanistan, from September 2011 to June 2012 in accordance with generally accepted government auditing standards.

What SIGAR Found
For the 29 USAID projects SIGAR examined, at least $300 million of the $2.9 billion (or 10.4 percent) expended during fiscal years
2009 through 2011 was for security services. At least $140 million of this $300 million was for PSC personnel, and about $27
million was for vehicles. SIGAR found that some implementing partners that had purchased armored vehicles also leased vehicles to
meet their needs, at a cost of $4.1 million, because they could not get the purchased vehicles through Afghan registration and customs
in a timely manner.
Assuming security requirements for armed Afghan guards do not change, the transition to the APPF could increase Afghan labor
costs by up to 46 percent or $3.1 million for the 13 of the 29 projects SIGAR examined that transitioned to the APPF. In addition,
SIGAR notes that some implementing partners indicated they may hire more expatriates through RMCs to facilitate the transition; by
one estimate, expatriate labor costs could increase as much as 200 percent or $52.1 million during the first year for the 13 projects
that transitioned to the APPF. Implementing partners identified other factors, such as increased security infrastructure, that may
further increase costs. In April 2012, USAID provided SIGAR its analysis of data provided by implementing partners for the first
month after the transition to the APPF. It showed security costs had decreased. However, SIGAR found that the data submitted to
USAID was inconsistent and incomplete, which calls into question USAID’s overall conclusions. Finally, as of June 2012, most of
USAID’s implementing partners had less than 3 months experience with the APPF. Some expressed concern about the initial
transition, including APPF personnel showing up with improper uniforms, weapons not being provided, and demands for services that
were not anticipated. While the transition to the APPF is underway, the eventual costs of security for USAID’s ongoing and future
programs and projects remain to be determined.
Finally, a May 2010 report by the USAID Office of Inspector General found that USAID had not ensured that all PSCs used by
implementing partners were licensed by the MOI, as required. Despite the Inspector General’s report, SIGAR found that
implementing partners used unlicensed PSCs for six projects as of December 2011, which is illegal, putting USAID projects and
reconstruction funding at risk.

What SIGAR Recommends
SIGAR is making three recommendations to the USAID Mission Director in Kabul. Given the likely increase in security costs under
the APPF, USAID should systematically assess security costs for (1) ongoing projects and (2) new and follow-on contracts,
cooperative agreements, and grants. In commenting on a draft of this report, USAID said it had done the analysis recommended for
ongoing projects and its existing policies and procedures already require that security costs for future programs and projects be
addressed. SIGAR disagrees that this is sufficient. Because the APPF is new and unique and its capabilities have not been proven, its
costs should be closely monitored as USAID’s implementing partners gain more experience with it. In addition, to help ensure that
implementing partners only use RMCs licensed by MOI, SIGAR recommends that the Mission Director institute a formal review
process to ensure implementing partners are using licensed RMCs. In its comments, USAID concurred with this recommendation.

                       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil


SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors
OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


June 29, 2012

The Honorable Hillary Rodham Clinton
Secretary of State

The Honorable Leon E. Panetta
Secretary of Defense

The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the costs associated with private security contractors (PSCs) used by
the U.S. Agency for International Development’s (USAID) implementing partners in Afghanistan during
fiscal years 2009 through 2011, and the costs of security and plans of those implementing partners after
the transition of security services to the Afghan Public Protection Force (APPF). We also determined
whether USAID’s implementing partners for selected projects were using PSCs licensed by the Afghan
government. This report makes three recommendations to the USAID Mission Director, Kabul, to
systematically assess security costs for (1) ongoing projects and (2) new and follow-on contracts,
cooperative agreements, and grants. We also recommended that the Mission Director help ensure that
USAID’s implementing partners only use risk management companies licensed by the Afghan
government.

When preparing the final report, we considered comments from USAID. USAID did not agree that it
should do any additional cost assessments than it has already done or what would be done under its
normal policies and procedures. We disagree that this is sufficient. Because the APPF is new and unique
and its capabilities have not been proven, its costs should be closely monitored as USAID’s implementing
partners gain more experience with it. USAID concurred with our third recommendation. USAID’s
comments are reproduced in appendix III. We conducted this performance audit under the authority of
Public Law No. 110-181, as amended; the Inspector General Act of 1978; and the Inspector General
Reform Act of 2008.




Steven J Trent
Acting Special Inspector General for
   Afghanistan Reconstruction




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                  Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
At Least $300 Million Was Expended for Security Services for 29 USAID
    Projects During Fiscal Years 2009-2011 ................................................................................................ 4
Security Costs Will Likely Increase During the First Year of Transition to APPF
   for 13 USAID Projects, but USAID and Implementing Partners Have
   Limited Experience with the APPF ........................................................................................................ 8
Implementing Partners Used Unlicensed PSCs for Six Projects ................................................................ 12
Conclusion .................................................................................................................................................. 13
Recommendations ....................................................................................................................................... 14
Comments ................................................................................................................................................... 14
Appendix I: Scope and Methodology ........................................................................................................ 16
Appendix II: PSC Expenditures for 29 of USAID’s Largest Projects for Fiscal
   Years 2009 through 2011 ..................................................................................................................... 18
Appendix III: Comments from the U.S. Agency for International Development ...................................... 21


 TABLES

Table 1: Total Project and PSC Expenditures for 29 USAID Projects, Fiscal
   Years 2009–2011 (dollars in millions) ................................................................................................... 5
Table 2: PSC Expenditures by Personnel Type, Fiscal Years 2009-2011 (dollars
   in millions) ............................................................................................................................................. 5
Table 3: PSC Vehicle Expenditures Reimbursed by Implementing Partners
   During Fiscal Years 2009-2011 (dollars in millions) ............................................................................. 7
Table 4: Armored Vehicles Leased, Purchased, or Transferred and in Use as of
   December 2011....................................................................................................................................... 7
Table 5: Fees for an APPF Guard and Estimated Total Monthly Costs .................................................... 10
Table I: Total Expenditures and PSC Expenditures for 29 of USAID’s Largest
   Projects, Fiscal Years 2009-2011 ......................................................................................................... 18


FIGURES AND PHOTOS

Figure 1: Number of Armed PSC Positions by Nationality for 29 of USAID’s
    Largest Projects for Fiscal Years 2009-2011 ........................................................................................ 6




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                                                                     Page ii
ABBREVIATIONS AND ACRONYMS

APPF                     Afghan Public Protection Force
FAR                      Federal Acquisition Regulation
GIRoA                    Government of the Islamic Republic of Afghanistan
ISAF                     International Security Assistance Force
MOI                      Ministry of Interior
OAA                      Office of Acquisition and Assistance
OFM                      Office of Financial Management
PLSO                     Partner Liaison Security Office
PSC                      Private Security Contractor
RMC                      Risk Management Company
SIGAR                    Special Inspector General for Afghanistan Reconstruction
USAID                    U.S. Agency for International Development




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page iii
    Increases in Security Costs Are Likely under the Afghan Public Protection
      Force; USAID Needs to Monitor Costs and Ensure Unlicensed Security
                             Providers Are Not Used
The U.S. Agency for International Development (USAID) relies heavily on implementing partners1 to
carry out its reconstruction and development assistance programs in Afghanistan. During fiscal years
2009 through 2011, USAID provided its implementing partners over $4.2 billion for these programs.
Implementing partners are responsible for their own security needs and, for the most part, contract with
private security contractors (PSCs) for security services for their offices, housing, and project sites and for
the movement of their personnel.

In August 2010, Afghanistan’s President Karzai issued Presidential Decree 62, calling for the
disbandment of PSCs. In March 2011, the Government of the Islamic Republic of Afghanistan (GIRoA)
issued The Bridging Strategy for Implementation of Presidential Decree 62, which provided for the
eventual dissolution of most PSCs. 2 Under this strategy, GIRoA required that responsibility for security
services for development programs and projects transfer to a state-run Afghan Public Protection Force
(APPF) by March 20, 2012. On the day of the transition, GIRoA released an APPF transition
implementation plan granting interim licenses to some PSCs allowing USAID’s implementing partners
more time to finalize security contracts with the APPF.

We initiated this audit to assess (1) the costs and the number of personnel and vehicles associated with
PSCs for selected USAID projects during fiscal years 2009 through 2011 and (2) the potential costs
related to the transition of security services from PSCs to the APPF and the plans of implementing
partners after the transition. We also determined whether USAID’s implementing partners for selected
projects were using PSCs licensed by GIRoA to operate in Afghanistan.

Overall, to address our objectives, we selected 35 of USAID’s largest projects based on total expenditures
during fiscal years 2009 through 2011. The 35 projects represented 17 implementing partners and had
expenditures totaling more than $3.2 billion, or more than 75 percent of USAID’s total expenditures
during the period. 3 For the 35 projects, we requested information from the implementing partners on any
PSCs they used, including personnel employed and vehicles used during the period. We also requested
that the implementers provide invoices for PSC costs incurred during fiscal years 2009 through 2011. In
coordination with USAID, we sent our information request to the 17 implementing partners and received
responses from 13—representing 29 projects with expenditures of approximately $2.9 billion.4 To assess
the costs and personnel associated with USAID’s PSCs, we analyzed the data provided by each of the
13 implementing partners that responded to our information request. To assess the costs of armed guards
after the transition, we analyzed invoices and data for the 13 of the 29 projects that were going to be
active as of the March 20, 2012, deadline and applied APPF rates; for expatriates, we met with several

1
  Implementing partners, as used by USAID and in this report, represents both contractors and recipients of
cooperative agreements and grants.
2
  PSCs providing services for International Security Assistance Force (ISAF) and Afghan National Security Forces’
construction sites and for ISAF bases will be allowed to operate for up to 1 additional year. Entities accredited with
diplomatic status will be exempt and able to continue the use of PSCs for their security needs.
3
  Projects may have had expenditures before and after the period examined, and not all projects were active all 3
years.
4
  Twenty-one of the projects were contracts, representing almost $1.7 billion, or 58 percent, expended during the
period, and 8 were cooperative agreements representing $1.2 billion, or 42 percent expended during the period. No
grants were in the top 35 USAID projects.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                              Page 1
implementing partners and two professional organizations that represent PSCs to discuss their views on
what will happen after the transition. To examine PSCs’ licensing status, we analyzed information
provided by the 17 implementing partners for each of the 29 projects. We discussed the use of PSCs and
the transition to the APPF with officials from USAID, the Departments of Defense and State, six USAID
implementing partners, and the APPF Advisory Group located under the NATO Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan. We conducted our work in
Washington, D.C., and Kabul, Afghanistan, from September 2011 through June 2012, in accordance with
generally accepted government auditing standards. See appendix I for more detail on our scope and
methodology.

BACKGROUND

USAID’s implementing partners are responsible for their own security in Afghanistan, which can be
challenging. Although reported incidents have declined in recent years,5 the average daily incidents as of
March 2012 still numbered from 1 to more than 3 in 15 Afghan provinces. 6 Implementing partners have
a variety of ways to provide for security of their personnel and sites—contracting with PSCs, hiring
unarmed watch keepers known as “chowkidars,” or providing their own armed security personnel. Many
use a combination of these services, but most have contracts with at least one PSC to provide a variety of
security functions. PSCs provide four basic services:

    •   Static (site) security—protecting fixed or static sites, such as housing areas, reconstruction work
        sites, or government buildings;
    •   Convoy security—protecting convoys traveling through unsecured areas;
    •   Security escorts—protecting individuals traveling through unsecured areas; and
    •   Personal security details—providing full-time protective security to high-ranking individuals.

PSCs may also provide other security services, such as operational coordination, intelligence analysis, and
security training.

The vast majority of PSC personnel in Afghanistan are Afghan nationals. Expatriates and third-country
nationals are also hired by PSCs, most often to provide management services or as security escorts for
implementing partner personnel. While no official definition of an expatriate exists, USAID and its
implementing partners generally consider expatriates to be U.S., Australian, Canadian, South African, or
British citizens. Citizens of other countries—often from the Middle East or Central Asia—are considered
third-country nationals.

Implementing partners are required to ensure that PSCs are approved for providing security services by
GIRoA and USAID. Under Afghan law, implementing partners may only hire PSC firms that are
registered with the Afghan Ministry of Interior (MOI). As of the end of fiscal year 2011, 45 PSCs were
approved and registered with MOI. Implementers must also seek and receive consent or approval from
USAID’s Office of Acquisition and Assistance (OAA) at USAID’s Kabul Mission before entering into
any subcontract, including those with PSCs.7 OAA is responsible for managing most of USAID’s
contracts, cooperative agreements, and grants in Afghanistan.8 Further, USAID established the Partner
5
  Reported incidents were 6,386 in the first 3 months of 2012, compared to 7,413 in the first 3 months of 2011.
6
  Defense Intelligence Agency, Afghanistan Security Incidents Database, April 13, 2012.
7
  According to USAID, implementing partners are generally required to seek subcontract consent for contracts, and
the Federal Acquisition Regulation (FAR) 44.2 provides the requirements concerning subcontract consent. Code of
Federal Regulations Title 22 Part 226.25 requires recipients of USAID funds under a cooperative agreement seek
approval of subcontracts. According to OAA, consent or approval only constitutes approval for the implementing
partner to enter into a subcontract agreement with the PSC and not actual approval of the subcontract. Grants do not
require OAA’s consent.
8
  A limited number of financial instruments are managed at USAID headquarters in Washington, D.C.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                            Page 2
Liaison Security Office (PLSO) at its Kabul Mission to provide a link between implementing partners and
USAID for the safety and security of implementing partner personnel. PLSO personnel are available to
assist OAA contracting and assistance officers by reviewing implementing partner security plans and
vetting proposed security contract modifications. After OAA approves or consents to an agreement,
implementers may enter into a subcontract for security services with PSCs. Subcontracts for PSC
services may be found at multiple tiers of a contract or cooperative agreement; that is, an implementing
partner may further subcontract a portion of a project to another entity, which may then subcontract for its
security requirements.

Transition of Security Services to the Afghan Government

Because of Afghan concerns with the use of PSCs, on March 15, 2011, the head of the Afghan MOI and
the Senior Advisor to the President issued a strategy for the dissolution of PSCs providing security
services for reconstruction efforts. Under this strategy, all PSC contracts for development projects were
to terminate by March 20, 2012, and responsibility for security transferred to a state-run APPF. 9 Also in
March 2011, the Commander of ISAF and the U.S. Ambassador to Afghanistan issued a memorandum
responding to President Karzai's announcement concerning dissolution of PSCs and transfer to the
APPF. 10 The memorandum expressed support for the transfer of security services, but noted that a
successful transition would depend on certain actions by the Afghan government, including the
development of a fully functioning APPF by the end of the bridging period. The strategy called for
periodic assessments conducted jointly by the U.S. and Afghan governments to assess the capabilities of
the APPF at 6-, 9-, and 12-month intervals, and every 3 months thereafter. The first assessment, released
in September 2011, found that the APPF did not show adequate competency in any of the six essential
tasks and only met standards for 46 of the 166 transition-readiness areas. A second assessment was
completed in December 2011, and a third assessment was due in March 2012. According to the U.S.
Central Command, results are pending on the third assessment. To date, however, neither the December
2011 nor the March 2012 assessments have been released. In addition, according to the strategy, another
assessment is due at the end of June 2012.

To assist with the buildup of the APPF and help ensure a smooth transition of security services, ISAF
established the APPF Advisory Group to work with MOI to build and assess the capacity of the APPF.
The working group includes representatives from the U.S. Embassy Kabul and USAID. Further, the
Overseas Security Advisory Council has acted as a source of information and a forum for concerns for
implementing partners on the transition. The Overseas Security Advisory Council is comprised of U.S.
private sector and four public sector member organizations that represent specific industries or agencies
operating abroad and provides direction and guidance to develop programs that most benefit the U.S.
private sector overseas.

On January 10, 2012, President Karzai approved a model that allows implementing partners to use a risk
management company (RMC) to advise on the security of sites, buildings, and personnel; logistics;
transportation of goods and equipment; and contract management. RMCs can also provide training,
contracting, and security advisory services to clients. Under this model, implementing partners requiring
security services must contract with the APPF for security services, but they have the option of hiring an
RMC to provide security consulting services. In addition, RMCs are allowed to provide lightly armed
personnel for the purposes of personal protection. Current PSCs may become an RMC; however, a PSC
may not hold both a PSC and an RMC license. 11 On March 20, 2012, GIRoA released an APPF transition
9
 MOI, The Bridging Strategy for Implementation of Presidential Decree 62, (Dissolution of Private Security
Companies); Bridging Period March 22, 2011 to March 20, 2012, dated March 15, 2011. Security for ISAF
convoys also transferred to the APPF in March 2012, but security services for ISAF facilities and construction sites
will transfer to APPF in March 2013. The strategy exempts PSCs providing security services for diplomatic
organizations.
10
   Letter to Minister of Interior, Afghanistan Bismullah Khan Mohammadi, March 15, 2010.
11
   If current PSCs want to keep a PSC license to serve diplomatic clients, they must form a separate entity as an
RMC.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                             Page 3
implementation plan granting interim licenses to some PSCs allowing implementing partners more time
to finalize security contracts with the APPF.

SIGAR’s Alert Letter to the USAID Mission Director to Afghanistan

On March 9, 2012, we issued an alert letter to the USAID Mission Director, Kabul, identifying three
concerns that we determined warranted immediate consideration ahead of the March 20, 2012, deadline
for transitioning security services to the APPF. First, we noted the transition to the APPF could increase
Afghan guard and expatriate personnel costs by as much as $55.2 million for 13 of USAID’s largest
projects in the first year after transition to the APPF. Second, if the APPF was not fully functioning by
the March 20, 2012, deadline and no extension was granted, at least 10 ongoing USAID projects with a
total award value of $899 million were at significant risk of termination based on USAID’s own
reporting. Third, we found two PSCs that were not licensed by MOI had contracts with USAID
implementing partners as of December 2011. We suggested that the USAID Mission Director, Kabul,
take certain actions addressing the concerns we raised, but he rejected our letter in its entirety. Because
the Mission Director did not agree with our suggested actions, we address these concerns again in this
report. In addition, our concerns were the subject of a Congressional hearing on March 29, 2012. 12

AT LEAST $300 MILLION WAS EXPENDED FOR SECURITY SERVICES FOR
29 USAID PROJECTS DURING FISCAL YEARS 2009-2011

At least $300 million of the $2.9 billion (or 10.4 percent) expended on 29 of USAID’s largest projects
during fiscal years 2009 through 2011 was for security services. 13 Of this, at least $140 million was for
PSC personnel and $27 million for vehicles. Other costs included communications equipment, fuel, life
support, and additional labor.

All but one of the 29 projects we examined had PSCs for security during this period. 14 Table 1 shows
USAID’s expenditures for the 29 reconstruction projects we examined and the portion that was spent on
PSCs by fiscal year. Appendix II provides additional information on each of the 29 USAID projects we
examined, including the PSC costs reported by the implementing partner.




12
   U.S. House of Representatives, Committee on Oversight and Government Reform, Subcommittee on National
Security; Are Changes in Security Policy Jeopardizing USAID Reconstruction Projects and Personnel in
Afghanistan?, March 29, 2012.
13
   Projects may have multiple tiers of subcontractors. While we attempted to identify PSC costs at all tiers, we could
not verify whether we captured all PSC costs beyond a first-tier subcontractor reported by the implementing partner
for any project. In addition, some implementing partners provided their own security services during this period,
which we did not attempt to quantify for this report.
14
   For one project, the implementing partner hired its own armed security, which is also required to transition to the
APPF.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                              Page 4
        Table 1: Total Project and PSC Expenditures for 29 USAID
        Projects, Fiscal Years 2009–2011 (dollars in millions)
          Fiscal              Total          Expenditures       PSC expenditures
                                   a                     b
           year       expenditures              for PSCs        as percent of total
          2009               $817.8                $91.7                    11.2
          2010                992.1                105.8                    10.7
          2011              1,066.8                102.4                         9.6
        Total             $2,876.7                $299.9                    10.4
        Source: SIGAR analysis of USAID financial data and implementing partners’
        PSC invoices.
        Notes:
        a
         Amounts paid by USAID to implementing partners.
        b
          Amounts paid by implementing partners to PSCs based on our review of
        invoices.

Personnel Costs Comprised $140 Million in Expenditures

Personnel costs made up almost half of the $300 million spent on security costs. Specifically, for 23 of
the 29 projects we examined, at least $140 million was for PSC personnel. 15 The majority of PSC
personnel were Afghans—more than 89 percent of all PSC positions were Afghan nationals 16—yet over
half of the personnel expenditures were for expatriate staff. Specifically, 59 percent was expended on
expatriate labor, while 33 percent was for Afghan labor. 17 Table 2 shows amounts spent on PSC
personnel by fiscal year for these 23 projects.


        Table 2: PSC Expenditures by Personnel Type, Fiscal Years
        2009-2011 (dollars in millions)
                                                                                       Percent
        Labor type                 2009          2010          2011      Total
                                                                                        of total
        Expatriate               $14.8        $32.6          $35.1     $82.5             58.8
        Third-country
                                   2.2           5.3           3.8      11.3              8.1
          national
        Afghan national            6.3          19.3          20.7      46.3             33.0
        Total                    $23.3        $57.2          $59.6    $140.2           100.0
        Source: SIGAR analysis of data obtained from PSC invoices collected from
        12 implementing partners
        Note: Totals affected by rounding.

Data reported by implementing partners show that the number of armed expatriate PSC personnel steadily
increased from fiscal year 2009 through fiscal year 2011, while armed Afghan PSC personnel first
increased then decreased. Specifically, armed expatriate PSC personnel increased from 71 to 207, or
almost 192 percent, from fiscal year 2009 to 2011, and armed Afghan PSC positions dropped in fiscal


15
   We did not include labor costs for six projects implemented by the Louis Berger Group Inc./Black & Veatch Joint
Venture because it did not provide the necessary detail. In addition, we could not determine labor categories from
some of the PSC invoices for the remaining 23 projects, which results in understating the labor costs for these
projects.
16
   Although most PSC personnel were armed, PSCs also hired a number of unarmed personnel. For the 29 projects
we examined, implementing partners had contracted for 501, 677, and 581 unarmed personnel as of the end of fiscal
years 2009, 2010, and 2011, respectively.
17
   Includes expenditures for both armed and unarmed personnel because the invoices did not separate the two.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                          Page 5
year 2011 to almost 23 percent below the fiscal year 2009 level, after having increased in fiscal year
2010. The number of armed third country nationals was relatively constant. See figure 1.

 Figure 1: Number of Armed PSC Positions by Nationality for 29 of USAID’s
 Largest Projects for Fiscal Years 2009-2011

     5000

     4000                                  4174                           Armed expatriate PSC
                       3313                                               personnel
     3000
                                                              2696        Armed Afghan PSC
     2000                                                                 personnel
     1000                                                                 Armed third country
                   240               216              233 207             national PSC personnel
        0                                   161
                     71
                   FY09              FY10              FY11


 Source: SIGAR analysis of USAID implementing partner data.



In addition, implementing partners for 8 of the 29 projects in our selection hired their own armed security
personnel. These projects averaged more than 75 additional armed personnel per year.18

Vehicles Accounted for over $27 Million in PSC Expenditures

Vehicle expenditures constituted almost 10 percent of the $300 million spent on security services.19
Specifically, our review of invoices for 23 projects shows that implementing partners spent over
$27 million to purchase or lease vehicles during fiscal years 2009 through 2011—$21.5 million for
armored vehicles and $5.6 million for other vehicles.20 See table 3.




18
   A total of 83, 80, and 76 armed personnel were employed directly by implementing partners at the end of fiscal
years 2009, 2010, and 2011, respectively.
19
   These expenditures included purchasing, leasing, and maintenance of vehicles. Some invoices billed costs for
vehicles with a driver.
20
   This represents vehicles purchased or leased by PSCs that were reimbursed by implementing partners. It does not
include vehicles that an implementing partner may have leased or purchased directly. It also does not include
vehicle costs for six projects implemented by the Louis Berger Group Inc./Black & Veatch Joint Venture.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                           Page 6
        Table 3: PSC Vehicle Expenditures Reimbursed by
        Implementing Partners During Fiscal Years 2009-2011
        (dollars in millions)
        Vehicle type              2009         2010          2011       Total

        Armored                  $5.2         $7.6          $8.7     $21.5
        Other                     1.3          2.0            2.4      $5.6
        Total                    $6.4         $9.6         $11.1     $27.1
        Source: SIGAR analysis of data obtained from implementing partners’
        invoices for PSC security services for 23 projects.
        Note: Totals affected by rounding.

As of December 5, 2011, almost half of all armored vehicles in use for the 15 active projects that we
examined were leased. 21 Table 4 shows the number of armored vehicles used and whether the vehicles
were purchased, leased, or transferred from another USAID program or project.


        Table 4: Armored Vehicles Leased,
        Purchased, or Transferred and in Use as of
        December 2011
                                                         Percent
        Procurement method                     Total
                                                         of total
        Leased                                  68         47.6
        Purchased                               32         22.4
        Transferred                             43         30.0
        Total                                  143        100.0
        Source: SIGAR analysis of data for 15 projects active and
        using armored vehicles as of December 5, 2011, obtained
        from implementing partners.

Afghan Government Delays Led Implementing Partners to Lease Additional Vehicles

We found that some implementing partners leased vehicles, at a total cost of $4.1 million,22 because
vehicles that they had already purchased were delayed in obtaining customs and registration approvals
from GIRoA.

Implementing partners and PSCs are allowed to import armored vehicles to provide for the secure
transportation of their personnel, but they must be properly licensed by GIRoA. 23 A company wishing to
import an armored vehicle must receive prior authorization from MOI. Licensing is required by MOI,
which charges an annual fee per vehicle. The Ministry of Finance manages customs processing and
charges a customs tax on the vehicles once they arrive in country. According to the APPF Advisory
Group, any vehicles that are currently registered with PSCs will have to be transferred if the PSCs obtain
RMC licenses.


21
   Sixteen of the projects we examined were still active at the time of our information request—December 5, 2011.
Fifteen of these projects used armored vehicles.
22
   Funds spent for armored vehicles currently in use as of December 5, 2011.
23
   Ministry of Interior Affairs, Deputy Office General Department, Procedure of Import and Use of Secure Armored
Vehicles, Items, Equipments and Temporary Technology Which Have Military and Security Usage, April 24, 2011.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                          Page 7
Six implementing partners reported administrative and bureaucratic delays ranging from 5 months to
2 years to get vehicles processed through customs and registered by GIRoA. For example:

       •    One implementer cited a time of 6 months on one project before vehicles were cleared for
            importation into Afghanistan and 24 months for another.
       •    The same implementing partner reported that registration only took 2 weeks after vehicles were
            held in customs for 6 months, while another implementing partner reported registration took up to
            8 months for its project.
       •    One implementing partner cited a time of 2 years for customs clearance and vehicle registration
            on two projects.
       •    One implementing partner estimated that it took a total of 3 months to get new licenses once
            vehicles were transferred from other projects. 24

Implementing partners cited instances of collusion and corruption as a cause for the delays in getting
vehicles through customs and registered. For example, according to one implementing partner, an
Afghan ministry official attempted to charge an additional $10,000 to register the company’s vehicles;
however, the implementing partner refused and leased vehicles instead. Some implementing partners also
alleged collusion between ministry officials and owners of local vehicle leasing companies.

In December 2011, personnel in the Kabul Mission’s PLSO informed us they were interviewing
candidates to hire a local national familiar with the customs and registration processes to assist
implementing partners in clearing these administrative barriers. As of June 2012, PLSO is awaiting final
security clearance and expects the individual to begin work in July. PLSO added that it had sent letters
urging MOI to complete outstanding registrations, but MOI’s response was a request that these letters be
sent from the U.S. Embassy.

SECURITY COSTS WILL LIKELY INCREASE DURING THE FIRST YEAR OF
TRANSITION TO APPF FOR 13 USAID PROJECTS, BUT USAID AND
IMPLEMENTING PARTNERS HAVE LIMITED EXPERIENCE WITH THE APPF

In our alert letter, we reported that security costs for 13 USAID projects that transitioned to the APPF
could increase by as much as $55 million during the first year after the transition. USAID did not agree
and has since provided us information that it says shows that security costs had decreased since the
transition to the APPF. However, we found this additional information incomplete and inconsistent.
Overall, USAID’s implementing partners experience with the APPF is limited, and costs remain
uncertain.

Security Costs Could Increase by as Much as $55 Million for 13 Projects

Assuming security requirements for armed Afghan guards do not change, the transition to the APPF will
likely increase Afghan labor costs by up to 46 percent or $3.1 million during the first year of transition for
the 13 projects that transitioned to the APPF. In addition, some implementing partners indicated they
may hire more expatriates through RMCs to facilitate the transition; by one estimate, expatriate labor
costs could increase as much as 200 percent or $52.1 million during the first year of transition for the 13
projects. Implementing partners identified other factors, such as increased security infrastructure, that
may further increase costs. However, overall, USAID disagreed with our assessment and, based on its
analysis, suggests that security costs under the APPF had decreased. We found USAID’s data to be
incomplete and inconsistent.




24
     Re-registration of the vehicles was required because the vehicles were transferred from one project to another.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                                Page 8
Afghan Armed Guards Could Increase Costs by $3.1 Million


The APPF will charge a monthly fee for an APPF armed guard, which includes the guard’s salary and
other fees. According to rates on the APPF Advisory Group’s website, MOI has set a base salary of a
guard at $100 a month. The APPF will add charges for firearms; ammunition; training; and
administrative and overhead fees, among other charges, to the monthly fee. Furthermore, the APPF will
apply a profit of 20 percent to all charges associated with a guard, except for uniform and pension
charges. 25

According to the Overseas Security Advisory Council, the current average salary for an Afghan guard
ranges from $250 to $350 per month, and our analysis found the average burdened rate 26 for an Afghan
guard was $566 per month in fiscal year 2011. Assuming that implementing partners pay their guards the
same salary as before the transition, the burdened rate for a guard after the transition will be between
$710 and $830 per month, an increase of between 25 and 46 percent.27 Table 5 illustrates the charges that
will be assessed per guard per month by the APPF, using the salary for an armed PSC guard in fiscal year
2011 of $250 and $350.




25
   Several fees have increased or changed since we began our work in November 2011. For example, the yearly cost
for a uniform increased almost $100 to $600 per year, and the pension charge increased from 11 percent to 16
percent and was then revised to a flat $200 per year.
26
   A burdened rate includes the salary of a guard, administrative and overhead costs, profit, and any related other
direct costs. An unburdened rate includes only the salary of a guard.
27
   Implementing partners may pay their guards the same pay that they received before the transition if it was more
than the APPF base pay. This pay is considered hazard pay.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                           Page 9
                                                                                          a
        Table 5: Fees for an APPF Guard and Estimated Total Monthly Costs
                                                                  Total for         Total for
                                                                guard with        guard with
        APPF fee                          Fee per guard
                                                                    salary            salary
                                                                   of $250           of $350
        Base salary                            $100.00           $100.00           $100.00
                                                TBD by
        Hazard pay                                                150.00            250.00
                                              customer
        Bank charges                               2.00              2.00              2.00
        Medicine                                   8.00              8.00              8.00
        Martyr contribution                       18.00             18.00             18.00
        Burial contribution                       12.50             12.50             12.50
        Training                                  10.00             10.00             10.00
        Food stipend                            120.00            120.00            120.00
        AK-47 rifle                               25.00             25.00             25.00
        9mm side arm                              17.00             17.00             17.00
        Ammunition                                 9.00              9.00              9.00
        Administrative and overhead               65.00             65.00             65.00
                                               20% of
        Profit                                                    107.00            127.00
                                            above total
                   b
        Pension                                   16.67             16.67             16.67
                                c
        Uniform and equipment                     50.00             50.00             50.00
        Total per guard                                             $710.00         $830.00
        Source: SIGAR analysis of information provided by the APPF Advisory Group and MOI.
        Notes:
        a
         These rates are from the APPF Advisory Group website as of mid April 2012.
        b
          We spread the $200 annual charge over 12 months.
        c
          We spread the $600 annual charge over 12 months.

For the 13 USAID projects we examined that were active after the March 20, 2012, transition to the
APPF, we found that these projects had 964 positions for armed Afghan guards as of September 30, 2011.
If the security needs for these projects do not change, these guards will cost implementing partners an
additional $1.7 to $3.1 million (or up to 46 percent) for the first year of the transition to the APPF.

Expatiates Could Increase Costs by as Much as $52.1 Million

Implementing partners cited the possible need for additional expatriate security personnel as a result of
uncertainty of the quality of security services to be provided by the APPF. Implementing partners are
particularly concerned about the innermost level of security for their personnel. According to the
Chairman of the Overseas Security Advisory Council, implementing partners estimate that the number of
expatriate personnel could increase up to 200 percent. The 13 projects that transitioned to the APPF had
79 positions for armed expatriate labor. Assuming an increase of expatriate labor of 200 percent, these 13
projects could cost as much as $52.1 million in additional labor costs for the first year. 28

In its comments on a draft of this report, the USAID Mission Kabul questioned our assumption that
expatriate labor costs could increase as much as 200 percent. As the Mission notes, the early experience
with the APPF has not borne this out. Nevertheless, the final number of expatriates and APPF personnel
remains to be determined. The APPF is a nascent, unproven entity and, according to one privately

28
 This figure was calculated using the monthly average burdened rate for an expatriate in fiscal year 2011 of
$27,454.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                              Page 10
employed security officer in Afghanistan, its leadership and administration have been questionable. Until
the APPF demonstrates a sustainable capability in its administration of security, more expatriates will be
needed.

Other Costs Could Increase

In addition, multiple implementing partners cited the need for additional security infrastructure, such as
blast walls and reinforced doors, as a result of the transition. Further, USAID announced to implementing
partners it will consider sole source requests to allow implementing partners to contract with RMCs that
previously provided security for their projects as PSCs. Limiting competition could lead to higher costs.

USAID Reports Security Costs Had Decreased, but Its Data Was Inconsistent and Incomplete

In April 2012, the USAID Mission Kabul provided us a cost analysis that it had done based on data it
obtained from implementing partners. USAID asked implementing partners to report the cost of security
services provided by PSCs during the last full month before the transition to the APPF, and the costs of
APPF services for the first month after the transition. In response, 15 implementing partners provided
USAID information on 32 projects.

USAID concluded, from the data it received, that security costs had decreased over three percent as a
result of the transition. We note that of the 13 largest USAID projects that continued after the March 20,
2012, transition, only 6 of these were included in USAID’s analysis. We also found the data provided by
the implementers was inconsistent and incomplete, which calls into question USAID’s overall conclusion
that security costs had decreased. For example, we noted the following:

    •   One implementing partner reported that it was performing some functions previously done by its
        PSC for two of its task orders, such as recruiting guards, distributing equipment, and paying
        guards until the APPF could do so. These costs were not included in USAID’s totals.

    •   The implementing partners for two projects noted in their responses that the pre- and post-APPF
        costs were not accurate comparisons, due to a significant decrease in project personnel or changes
        in scope of work.

    •   For one project, the implementing partner had yet to sign a contract with the APPF for all of its
        security needs and, therefore, costs for the APPF were not included in its response.

    •   The security costs reported for four projects reportedly decreased significantly after the
        implementing partner signed with the APPF—31, 32, 32, and 51 percent, respectively. We asked
        the USAID Mission Kabul why these numbers declined so much, especially the 51 percent
        decrease, but the Mission did not know, telling us that we would have to contact the
        implementing partners for this information.

Finally, several of USAID’s implementing partners that had previously used PSC services indicated that
they would only be using an RMC and not the APPF. These reports raise questions about how RMCs
will be used. To date, GIRoA has not indicated whether using an RMC without the APPF will be
allowed.

Experience with APPF Is Limited, and Costs Are Uncertain

Although, the APPF has entered into contracts to provide security services for a number of USAID’s
implementing partners, signed contracts are only the first step in the APPF providing security services.
USAID’s implementing partners have limited experience with the APPF, and costs are still uncertain.
While the transition to the APPF is underway, the eventual costs of security for USAID’s ongoing and
future programs and projects remain to be determined.

SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                   Page 11
In January 2012, USAID’s assessment of contingency plans submitted by its implementing partners found
that, if the APPF is not prepared to provide adequate security services and an extension is not granted by
GIRoA, 10 projects with a total award value of $899 million were at significant risk of termination. The
assessment also found that an additional 19 projects valued at $451 million may require either a partial
termination or modification of operations if the APPF is unable to provide security services. The interim
licenses granted for some projects allow implementing partners additional time to transition.
Nevertheless, although no implementing partners have terminated their projects because of concerns with
APPF, the projects USAID identified at risk of termination or modification are still at risk until the
implementing partners determine that the APPF can provide adequate security services.
Also, before the transition to the APPF occurred, implementing partners expressed concern that the
Federal Acquisition Regulation and USAID directives require that certain clauses be inserted into
contracts or cooperative agreements, some specifically addressing security matters, and these clauses are
further required to be inserted into subcontracts. However, the APPF contract template does not contain
all of these required clauses. In its comments on a draft of this report, the USAID Mission Kabul reported
that its implementing partners have been able to add the required clauses to the APPF contract template
on a case-by-case basis, though USAID did not provide us with any examples of these contracts, as we
requested.
Also of some concern, according to the APPF Advisory Group website as of June 19, 2012, we note that
19 RMCs had been licensed by the MOI. This is significantly less than the 45 PSCs previously licensed
to provide security services.
Further, as of June 2012, most of USAID’s implementing partners had less than 3 months experience with
the APPF. In following up with some of USAID’s implementing partners about their experiences with
the APPF, they expressed concern about the initial transition and operations. For example,

    •   Implementing partners expressed concern about lines of command and control over the APPF
        guards. For example, even though its contract with the APPF allows it to reject unsuitable
        personnel and propose replacements, one USAID implementing partner reported that it has been
        unsuccessful in doing so.
    •   In one instance, APPF personnel reported for duty in Afghan National Police uniforms; the
        implementing partner turned the personnel away and asked them to report in APPF uniforms.
    •   At one site served by APPF, the implementing partner reported that the provision of weapons and
        uniforms had been held up for almost 2 months awaiting approval of the APPF’s “tashkil” or its
        personnel and equipment authorization. As noted by the implementing partner, the delay could
        have been disastrous if any serious security incident had occurred.
    •   An implementing partner reported that some APPF officers were assigned to sites that were not
        near their homes. These officers “demanded” services that were not anticipated, such as trips
        back to Kabul to visit their family, a car and fuel, and other forms of life support that were not
        originally agreed to in the contract.
    •   One implementing partner also reported that the APPF was submitting invoices for guard services
        for projected hours worked, rather than actual hours. The partner noted that it had not seen that
        the APPF had a system to adjust the projected costs to actual.
Not all experiences with the APPF have been negative. One implementing partner reported that all its
APPF guards transitioned from its PSCs, and its RMC has “continuously” advised the APPF regarding
the security operation.

IMPLEMENTING PARTNERS USED UNLICENSED PSCS FOR SIX PROJECTS

GIRoA requires PSCs to hold a current operating license from MOI to provide security services. To
obtain an operating license, a PSC must comply with certain MOI procedural and legal requirements and
pay a yearly fee. Implementing partners must seek consent or approval from USAID before entering into

SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                    Page 12
any subcontracts. 29 A May 2010 report by the USAID Office of Inspector General found that USAID had
not ensured that all PSCs used by implementing partners were licensed by the MOI and recommended
USAID notify the implementing partners not using licensed PSCs of this requirement.30 USAID
concurred with this recommendation.

Nevertheless, we determined that implementing partners used unlicensed PSCs for six projects. Three of
these projects were among the 29 projects we reviewed. 31 As of December 5, 2011, unlicensed PSCs
were still providing security services for two of these projects. After we issued our March 8, 2012, alert
letter citing the use of unlicensed PSCs, USAID provided additional documentation regarding the
transition to the APPF. Based on this documentation, we found three additional projects where
implementing partners used unlicensed PSCs for security services.

Implementing partners’ failure to contract with licensed PSCs is illegal in Afghanistan and puts both
USAID projects and reconstruction funding at risk. Despite the USAID Inspector General’s prior report,
USAID did not have a process requiring implementing partners to submit MOI licenses for their PSCs or
an established process for reviewing these licenses before providing consent or approval for subcontracts.

CONCLUSION

During fiscal years 2009 through 2011, USAID provided its implementing partners over $4.2 billion for
reconstruction and development assistance programs in Afghanistan. Without adequate security for
USAID’s implementing partners, many of these programs and projects could be scaled back or
terminated, putting USAID reconstruction funding at risk.

The March 2012 transition to the APPF has increased the uncertainty over security, though USAID
reports that its implementing partners are working with the APPF, as required, and no programs or
projects have been terminated. Nevertheless, the transition is in its early stages and USAID and its
partners have limited experience with the costs and adequacy of APPF’s security services. USAID’s
analysis of transition costs was limited, and we found its data was incomplete and inconsistent among the
implementing partners that provided data. Based on our analysis, security costs are likely to increase and
could be substantial, and some initial reports are that the transition to the APPF has encountered some
issues that need to be addressed. These costs should be monitored for ongoing projects, as well as
specifically addressed on future USAID programs and projects, especially as the implementing partners
gain experience with the APPF.

In addition, USAID did not have a system in place to ensure that all PSCs used by its implementing
partners were licensed to operate in Afghanistan. While PSCs are being phased out, USAID must ensure
that any RMCs implementing partners contract with are properly licensed by GIRoA.




29
   Consent is required for contracts and approval is required for cooperative agreements.
30
   USAID Office of Inspector General Audit Report No. 5-306-10-009-P, Audit of USAID/Afghanistan’s Oversight
of Private Security Contractors in Afghanistan, May 21, 2010.
31
   One project used two unlicensed PSCs.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                    Page 13
RECOMMENDATIONS

Given the likely increase in security costs under the APPF, we recommend that the USAID Mission
Director, Kabul:

    1. Perform a comprehensive analysis of security costs for all ongoing projects that are using or plan
       to use APPF security services and determine a) if funding will be available to cover any
       additional security costs and b) the effect the additional costs will have on overall project
       implementation.
    2. Before deciding whether to award new or follow-on contracts, cooperative agreements, or grants
       for reconstruction and development projects, conduct a cost-benefit analysis for each award that
       methodically assesses whether U.S. funds should be spent on other projects if the costs of security
       exceed any benefits that USAID expects to derive from these projects.

To ensure implementing partners only use RMCs licensed by MOI, we recommend the USAID Mission
Director, Kabul:

    3. Institute a formal process that requires implementing partners to submit MOI licenses to OAA
       and requires OAA to ensure they are still valid and to document these reviews prior to approving
       or consenting to the subcontract award.

COMMENTS

We provided a draft of this report to USAID and the U.S. Central Command for comment. The USAID
Mission Kabul provided detailed comments, which are reproduced in appendix III. We also met with
USAID Mission Kabul officials on April 17 and 30, 2012, to discuss the status of the transition to the
APPF and the alert letter. The U.S. Central Command did not provide formal comments. Both USAID
and the U.S. Central Command noted some technical changes and clarifications, which we have
incorporated into this final report, as appropriate.

Overall, the USAID Mission said the report provided some useful insights, but disputed much of our
analysis supporting likely increases in security costs during the first year of transition for the 13 projects
we examined. USAID’s principal disagreement with our cost analysis was that security needs will not
change; in particular, USAID contends that the increase in expatriate labor that some experts reported
could increase as much as 200 percent is not likely. We clearly noted in the report that this was an upper
limit, but should be considered as a possibility. Nevertheless, early indications from some of USAID’s
implementing partners are that more expatriates are being hired, but not at double or triple the rates from
before the transition. While we would welcome the lower (or no) increase in expatriate labor costs that
USAID is expecting, the eventual number of and use of expatriates remains to be determined.

USAID Mission Kabul also did not concur with the first two recommendations, saying (1) its analysis
shows security costs declining for ongoing projects as of April 2012 and further analysis was not
necessary and (2) for future projects, its standard policies and procedures for entering into contracts,
cooperative agreements, or grants already require the consideration of all costs associated with the
project, including security services.

    •   Concerning recommendation number one, the data USAID used in its analysis was collected just
        weeks after the transition. Although USAID’s data showed security costs were decreasing, we
        found the data incomplete and inconsistent among the implementing partners that responded to
        USAID’s data request, which calls into question USAID’s conclusions. While decreased security
        costs would be a good outcome, the transition to the APPF is in its early stages and USAID and
        its implementing partners do not have much experience with it. We continue to believe that a
        systematic monitoring of security costs for ongoing projects would be useful to document


SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                      Page 14
        implementing partners’ experiences with the APPF, and to provide a longer-term analysis of the
        costs involved.

    •   Concerning recommendation number two, the APPF is a new Afghan entity that is untested. A
        September 2011 assessment found the APPF was not ready to provide security. The results of
        planned assessments from December 2011 and March 2012 have not been released. This lack of
        transparency raises doubts about the capability and capacity of the APPF to provide the security
        necessary for USAID’s implementing partners. If it cannot, USAID’s investment in
        Afghanistan’s development could be at risk if implementers withdraw or projects are cut short.
        We continue to urge USAID to specifically consider the security needs and costs with its
        implementing partners as new programs and projects are initiated. The costs of security should
        be weighed against the benefits of the project before contracts, cooperative agreements, or grants
        are entered into.

Overall, we continue to urge the USAID Mission to systematically track the security costs of the APPF as
implementing partners gain more experience with it. Specifically, USAID should monitor security costs
over time, ensure implementing partners report data using common definitions and time periods, and
explain variances as they occur.

In regards to recommendation number three, the USAID Mission concurred and noted actions planned to
ensure RMCs are properly licensed with the GIRoA before contracts can be entered into.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                  Page 15
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s audit of the costs of private security contractors (PSCs) associated with the U.S. Agency
for International Development’s (USAID) reconstruction and development assistance programs in
Afghanistan. We initiated this audit to assess (1) the costs and the numbers of personnel and vehicles
associated with PSCs for selected USAID projects during fiscal years 2009 through 2011 and (2) the
potential costs related to the transition of security services from PSCs to the Afghan Public Protection
Force (APPF) and the plans of implementing partners after the transition. We also determined whether
USAID’s implementing partners for selected projects were using PSCs licensed by the Government of the
Islamic Republic of Afghanistan (GIRoA) to operate in Afghanistan. In conducting this audit, we
reviewed documents covering the period September 2007 to June 2012.

To address our objectives, we selected 35 of USAID’s largest projects representing almost $3.27 billion,
or more than 75 percent of the total expenditures during fiscal years 2009 through 2011. 32 These projects
represented 17 implementers. To select the projects, the USAID Office of Financial Management (OFM)
provided a list of all 162 USAID contracts, cooperative agreements, and grants over $100,000 that had
expenditures during fiscal years 2008, 2009, 2010, and 2011. We compared the accrued expenditures for
all 162 awards in the OFM report to computer-processed data previously provided to us from USAID’s
financial information system. We reconciled the total disbursements in the OFM report to USAID’s
financial system to within 97.7 percent accuracy. We also identified some additional discrepancies in the
computer-processed data report, such as expenditures for one financial instrument was listed under
different line items, which USAID corrected. Therefore, we concluded that the data were sufficiently
reliable for the purposes of our objectives. Once we were satisfied the data met our needs, we excluded
any inter-governmental transfers, GIRoA grants, or grants to multilateral organizations. We then
stratified the projects by total expenditures to select USAID’s 35 largest projects. Finally, we assessed
the adequacy of internal controls over USAID’s financial data, including its assessment of implementing
partners’ security costs after the transition to the APPF, through interviews with cognizant officials and
reviews of relevant documents. The results of our assessment are included in the body of this report.

To determine the PSC costs and the numbers of personnel and vehicles used for the 35 largest projects,
we requested information from the associated implementing partners on any PSC used, personnel they
employed, and vehicles used during fiscal years 2009 through 2011. We met with six implementers to
discuss our objectives and to vet our questions and the format of our information request prior to sending
to all 17 implementing partners. In coordination with USAID, we sent our request for information to the
implementing partners and received responses from 13, representing 29 projects. 33 We also requested
that the implementing partners provide PSC invoices for any PSC costs incurred during fiscal years 2009
through 2011. The format and detail of the invoices we received varied greatly from one project and
implementing partner to the next. We recorded the total for each month and identified certain cost
elements, where possible; specifically, (1) labor costs for expatriates, third country nationals, and local
nationals and (2) the costs for both armored and unarmored vehicles. We also documented by year the
number of PSC personnel positions and internal armed security personnel positions and the number and
type of vehicles used. We also analyzed the narratives provided by implementing partners specific to
questions we asked on challenges getting armored vehicles through customs and registered by the GIRoA,
and other significant costs associated with security services to identify trends and common responses.

However, for one implementing partner, Louis Berger Inc./Black & Veatch Joint Venture, we could not
identify with certainty the PSC costs for the six projects in our selection because the invoices also

32
   Projects included may have had expenditures before and after the period examined. Further, not all projects were
active all 3 fiscal years.
33
   Twenty-one of these projects were contracts, representing almost $1.7 billion or 58 percent of expenditures during
the period, and 8 were cooperative agreements representing $1.2 billion or 42 percent spent during the period. No
grants were in the largest 35 projects.
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                            Page 16
included costs for projects not in our selection. Instead, we asked the Joint Venture to provide its security
costs for the six projects for all 3 years, which means the personnel and vehicle costs we report by year do
not include these six projects. However, the numbers of personnel and vehicles we report do include
these projects.

To estimate the labor costs associated with the transition to the APPF, we calculated an average burdened
labor rate for Afghan guards and expatriate security managers before the transition by analyzing the labor
rates charged on invoices for 10 projects in fiscal year 2011. For each project, we took the burdened
labor rates from three invoices—one from early in the year, one from mid-year, and one from late in the
year—for a total of 30 invoices and averaged them together. For Afghan guards, the rate was $566 per
month; for expatriate staff, the rate was $27,454 per month.

    •   To estimate the costs for an Afghan guard after the transition to the APPF, we obtained an
        unburdened labor rate for an Afghan guard from the Overseas Security Advisory Council ($250
        to $350 per guard) and added the APPF fees published on the AFFP Advisory Group’s website as
        of mid-April 2012 to determine the fully burdened rate of an APPF guard. To calculate the
        additional estimated cost for Afghan guards, we subtracted the burdened rate we calculated of
        $566 per month from these new figures.

    •   To estimate the costs for expatriate security managers after the transition to the APPF, we
        multiplied the calculated burdened rate ($27,454 per month) by the increase (up to 200 percent)
        projected by the Overseas Security Advisory Council based on meetings with implementing
        partners.

To estimate the additional costs of security services for the first year after the transaction to the APPF for
the 13 projects we examined that transitioned to the APPF as of March 20, 2012, we (1) applied the
calculated increase in the burdened labor rate for the number of Afghan guards they had been using and
(2) added the projected increase in the number of expatriate managers they had been using.

In addition, we reviewed numerous documents, reports, studies, memoranda, and guidance related to
PSCs and the transition to the APPF. We reviewed guidance and regulations by the Afghan Ministry of
Interior on PSCs and risk management companies, the GIRoA/International Security Assistance
Force/U.S. Embassy 6-month assessment of the APPF, Partner Liaison and Security Office (PLSO)
reviews of three implementing partners’ security plans or security proposals, and USAID’s analyses of
the pre- and post-transition costs from April 2012. We discussed the costs of PSCs and USAID’s plans
for transitioning to the APPF with officials from the USAID Mission’s Office for Acquisition and
Assistance and PLSO; USAID’s Office of Financial Management; and contracting officers, contracting
officers’ technical representatives, and program managers from various program. In addition, we
discussed the build-up and capacity of the APPF with the APPF Advisory Group under the NATO
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan, and we attended
two Industry Days hosted jointly by the Afghan Ministry of Interior and the APPF Advisory Group to
update the development community on the capacity and transition to the APPF. We also attended a
meeting of the Overseas Security Advisory Council and met with officials from the Professional Services
Council, Inc., and six implementing partners to obtain information on plans to transition to the APPF.

We conducted work in Washington, D.C., and in Kabul, Afghanistan, from September 2011 to June 2012,
in accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. The audit was conducted
under the authority of Public Law No. 110 181, as amended; the Inspector General act of 1987; and the
Inspector General Reform Act of 2008.



SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                      Page 17
APPENDIX II: PSC EXPENDITURES FOR 29 OF USAID’S LARGEST PROJECTS
FOR FISCAL YEARS 2009 THROUGH 2011

The following table lists 29 of the 35 U.S. Agency for International Development (USAID) projects that
USAID reported having the largest value of expenditures during fiscal years 2009 through 2011.
Implementing partners for six of the projects did not respond to our request for information. We analyzed
invoices for each of these projects to determine how much was spent for private security contractors
(PSCs). Projects may have multiple tiers of subcontractors. While we attempted to identify PSC costs at
all tiers, we could not verify whether we captured all PSC costs beyond a first-tier subcontractor reported
by the implementing partner for any project. In addition, some implementing partners provided their own
security services during this period, which we did not attempt to quantify for this report. In one case,
USAID’s implementing partner did not use a PSC. For the 29 projects we examined, PSCs expenditures
totaled at least $299 million or about 10.4 percent of total expenditures during fiscal years 2009 through
2011.


Table I: Total Expenditures and PSC Expenditures for 29 of USAID’s Largest Projects, Fiscal
Years 2009-2011
                                                                Project         PSC
                                                                                             PSC
                                                          expenditures expenditures                Active as of
                           Implementing Agreement                                    expenditures
Agreement number                                                    for          for                March 20,
                           partner      type                                         as percent of
                                                           fiscal years fiscal years                  2012
                                                                                             total
                                                             2009-2011    2009-2011
                         International
                         Relief and         Cooperative
306-DFD-A-00-08-00304-00                                      $470.7         $37.9            8.1       No
                         Development,       Agreement
                         Inc.
                           Development
DFD-I-00-05-00250-00       Alternatives,    Contract           261.6          33.1           12.7       No
                           Inc.
                           International
                           Relief and       Cooperative
306-A-00-08-00509-00                                           258.6          21.3            8.2       No
                           Development,     Agreement
                           Inc.
                           Central Asia
                                            Cooperative
306-A-00-09-00511-00       Development                         195.9              -           0.0      Yes
                                            Agreement
                           Group, Inc.
                           Deloitte
306-C-00-07-00508-00       Consulting,      Contract           169.6            8.7           5.1       No
                           LLP
                           The Louis
                           Berger Group
306-I-09-06-00517-00       Inc./Black &     Contract           138.9            9.5           6.9       No
                           Veatch Joint
                           Venture
                           The Louis
                           Berger Group
306-I-08-06-00517-00       Inc./Black &     Contract           129.5          47.7           36.9       No
                           Veatch Joint
                           Venture
                           The Louis
                           Berger Group
306-I-01-06-00517-00       Inc./Black &     Contract            88.2          13.9           15.8       No
                           Veatch Joint
                           Venture
                           Chemonics
306-DOT-I-01-08-00033-00   International,   Contract            87.8          17.6           20.1      Yes
                           Inc
                           Chemonics
306-C-00-07-00501-00       International,   Contract            87.6            6.8           7.7       No
                           Inc


SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                                 Page 18
                                                                Project         PSC
                                                                                             PSC
                                                          expenditures expenditures                Active as of
                           Implementing Agreement                                    expenditures
Agreement number                                                    for          for                March 20,
                           partner      type                                         as percent of
                                                           fiscal years fiscal years                  2012
                                                                                             total
                                                             2009-2011    2009-2011
                           The Louis
                           Berger Group
306-I-04-06-00517-00       Inc./Black &     Contract            87.0            8.4           9.6       No
                           Veatch Joint
                           Venture
                           Development
                                            Cooperative
306-A-00-09-00508-00       Alternatives,                        84.5            3.1           3.7      Yes
                                            Agreement
                           Inc.
                           Creative
                           Associates
306-M-00-06-00508-00                        Contract            70.7            2.2           3.1       No
                           International,
                           Inc.
                           Development
306-C-00-07-00503-00       Alternatives     Contract            67.4            8.3          12.4      Yes
                           Inc.
                            Consortium
                           for Elections
                                            Cooperative
306-A-00-08-00529-00       and Political                        66.4          14.3           21.5      Yes
                                            Agreement
                           Process
                           Strengthening
                           International
                           Foundation For
306-DFD-I-06-05-00225-00                  Contract              61.4          13.7           22.4      Yes
                           Election
                           Systems
                           CARE             Cooperative
306-A-00-09-00510-00                                            59.3            0.8           1.3       No
                           International    Agreement
                           International
                           Relief and
306-M-00-06-00505-00                        Contract            54.9            7.5          13.7       No
                           Development,
                           Inc.
                         Deloitte
306-EEM-I-04-07-00005-00 Consulting,        Contract            53.9            6.9          12.9      Yes
                         LLP
                           Development
306-DOT-I-02-08-00035-00   Alternatives,    Contract            49.8            5.8          11.7      Yes
                           Inc.
                           The Louis
                           Berger Group
306-I-14-06-00517-00       Inc./Black &     Contract            44.9            4.0           8.9       No
                           Veatch Joint
                           Venture
                           Chemonics
306-M-00-05-00516-00       International,   Contract            44.5            5.0          11.2       No
                           Inc
                           Chemonics
306-C-00-10-00527-00       International,   Contract            41.2            2.6           6.3      Yes
                           Inc
                           Chemonics
306-C-00-09-00529-00       International,   Contract            38.3            6.9          18.1      Yes
                           Inc

                           JHPIEGO          Cooperative
306-A-00-06-00523-00                                            37.2            1.0           2.7      Yes
                           Corporation      Agreement

306-A-00-06-00520-00       Academy for      Cooperative
                           Educational      Agreement           34.3           0.7           2.1        No
                           Development




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                                 Page 19
                                                              Project         PSC
                                                                                           PSC
                                                        expenditures expenditures                Active as of
                           Implementing Agreement                                  expenditures
Agreement number                                                  for          for                March 20,
                           partner      type                                       as percent of
                                                         fiscal years fiscal years                  2012
                                                                                           total
                                                           2009-2011    2009-2011
                           The Louis
                           Berger Group
306-I-02-06-00517-00       Inc./Black &    Contract            31.5            6.9         21.9       No
                           Veatch Joint
                           Venture
                           Black & Veatch
                           Special
306-C-00-11-00506-00                      Contract             30.8            2.3          7.4      Yes
                           Projects
                           Corporation
                           Development
306-C-00-10-00526-00       Alternatives,   Contract            30.6            2.9          9.6      Yes
                           Inc.
Total                                                      $2,876.7        $299.9          10.4
Source: SIGAR analysis of USAID financial data and implementing partners’ PSC invoices.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                               Page 20
APPENDIX III: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




                                                                                    See SIGAR
                                                                                    comment 1.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 21
                                                                                     See SIGAR
                                                                                     comment 2.




                                                                                    See SIGAR
                                                                                    comment 3.




                                                                                     See SIGAR
                                                                                     comment 3.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 22
                                                                                    See SIGAR
                                                                                    comment 3.




                                                                                    See SIGAR
                                                                                    comment 4.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 23
                                                                                    See SIGAR
                                                                                    comment 3.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 24
                                                                                      See SIGAR
                                                                                      comment 1.



                                                                                      See SIGAR
                                                                                      comment 5.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 25
                                                                                    See SIGAR
                                                                                    comment 6.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 26
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 27
                                                                                    See SIGAR
                                                                                    comment 1.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 28
                                                                                    See SIGAR
                                                                                    comment 7.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 29
SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 30
                                                                                    See SIGAR
                                                                                    comment 8.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors   Page 31
The following are SIGAR comments on USAID’s letter dated June 12, 2012:

    1. We updated the report, accordingly.

    2. We clarified the sentence to reflect that DIA’s incident data also has declined in recent months.

    3. We do not agree that any change is necessary.

    4. We clarified and elaborated on our methodology throughout the report. In particular, see
       appendix I, pages 16-17. We clearly noted in the report that this was an upper limit, and should
       be considered as a possibility. We also note that the transition to the APPF is still in its early
       stages and USAID’s implementing partners’ experience with it and their ultimate use of
       expatriate labor remains to be determined.

    5. We added additional information regarding our analysis of USAID’s cost calculations. See page
       11.

    6. USAID mischaracterizes our cost analysis. The likely increase in security costs that we report is
       for the 13 projects we examined that transitioned to the APPF. The projects were selected based
       on total expenditures during fiscal years 2009 through 2011 and was not a random sample. A
       confidence level cannot be applied to it. See appendix I, pages 16-17.

    7. The data USAID used in its analysis was collected just weeks after the transition to the APPF.
       Although USAID’s data showed security costs were decreasing, we found the data incomplete
       and inconsistent among the implementing partners that responded to USAID’s data request,
       which calls into question USAID’s conclusions. While decreased security costs would be a good
       outcome, the transition to the APPF is in its early stages and USAID and its implementing
       partners do not have much experience with it. We continue to believe that a systematic
       monitoring of security costs for ongoing projects would be useful to document implementing
       partners’ experiences with the APPF, and to provide a longer-term analysis of the costs involved.

    8. The APPF is a new Afghan entity that is untested. A September 2011 assessment found the
       APPF was not ready to provide security. The results of planned assessments from December
       2011 and March 2012 have not been released. This lack of transparency raises doubts about the
       capability and capacity of the APPF to provide the security necessary for USAID’s implementing
       partners. If it cannot, USAID’s investment in Afghanistan’s development could be at risk if
       implementers withdraw or projects are cut short. We continue to urge USAID to specifically
       consider the security needs and costs with its implementing partners as new programs and
       projects are initiated. The costs of security should be weighed against the benefits of the project
       before contracts, cooperative agreements, or grants are entered into.




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors                  Page 32
                  (This report was conducted under the audit project code SIGAR-051A).




SIGAR Audit-12-10 Contract Performance and Oversight/Private Security Contractors        Page 33
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-3912 ext. 7303
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-601-4065

Public Affairs                Public Affairs Officer
                              Phone: 703-545-5974
                              Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                              Mail: SIGAR Public Affairs
                              2530 Crystal Drive
                              Arlington, VA 22202
